No. 20-319

3fn the Ouprente Court of the Entteb ilotateti
COMCAST CORPORATION AND COMCAST CABLE
COMMUNICATIONS MANAGEMENT, LLC, PETITIONERS
V.
VIAMEDIA, INC., RESPONDENT
CERTIFICATE OF SERVICE
I, as a member of the Supreme Court bar, certify that on October 13, 2020, three
copies of the Brief for the Chamber of Commerce of the United States of America as
Amicus Curiae in Support of Petitioners in the above-captioned case were served by
U.S. Mail, as required by U.S. Supreme Court Rule 29.5(c), on the following:
MIGUEL A. ESTRADA
Gibson, Dunn & Crutcher LLP
1050 Connecticut Ave., N.W.
Washington, DC 20036
(202) 955-8257
Counsel for Petitioners

AARON M. PANNER
Kellogg, Hansen, Todd, Figel &
Frederick, P.L.L.C.
1615 M Street, NW
Suite 400
Washington, DC 20036-3209
(202) 326-7921
Counsel for Respondent

The following email addresses have also been served electronically:
mestrada@gibsondunn.com
apanner@kellogghansen.com

I

4,,L...._

Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Amicus Curiae

